         Office of Inspector General




March 30, 2006

ELLIS A. BURGOYNE
VICE PRESIDENT, DELIVERY AND RETAIL

ROBERT L. OTTO
VICE PRESIDENT, CHIEF TECHNOLOGY OFFICER

SUBJECT:       Audit Report – Data Input Validation for the Facilities Database
              (Report Number IS-AR-06-006)

This report presents the results of our audit of data input validation for the Facilities
Database (FDB) (Project Number 05BG016IS000). U.S. Postal Service management
requested the U.S. Postal Service Office of Inspector General (OIG) to determine if the
data supplied to the FDB are timely, complete, and validated for accuracy. This audit is
the first in a series of audits we plan to conduct regarding the data quality in systems
that provide information to the FDB.

Our audit of the Products and Services module of the FDB confirmed that Postal
Service management has made enhancements over the past year that should improve
the quality of system data. However, management could make further improvements by
addressing issues related to this module to ensure they maintain timely, complete, and
accurate data within the FDB. This audit concentrated on review of the inputs to the
Products and Services module, and we did not review processes associated with other
input sources to the FDB.

We made three recommendations to management to improve the quality of data
maintained in the FDB. Management agreed with our recommendations and is in the
process of developing a management instruction documenting Postal Service
requirements for maintaining and validating information within the FDB. Management is
also developing a method of monitoring and enforcing employee compliance with these
requirements. In addition, management has agreed to update the Facilities Database
System User Guide. Management’s comments and our evaluation of these comments
are included in the report.

The OIG considers recommendation 2 significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. This recommendation should not be closed in the
follow-up tracking system until the OIG provides written confirmation the
recommendation can be closed.
We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions or need additional information, please contact Gary Rippie,
director, Information Systems, or me at (703) 248-2300.

   E-Signed by John Cihota
ERIFY authenticity with ApproveI




John E. Cihota
Deputy Assistant Inspector General
 for Financial Operations

Attachments

cc:   Richard J. Strasser, Jr.
      Harold E. Stark
      George W. Wright
      Frederick J. Hintenach
      Steven R. Phelps
Data Input Validation for the Facilities Database                                    IS-AR-06-006




                                                INTRODUCTION
Background                          Prior to the creation of the Facilities Database (FDB), the
                                    U.S. Postal Service maintained numerous databases that
                                    contained information and demographics about facilities and
                                    services. Many of these databases were inconsistently
                                    maintained and contained inaccurate information. In
                                    addition, most of these databases were built to address
                                    narrow functional interests and were of minimal use to other
                                    organizational units within the Postal Service.

                                    To address this situation, the Postal Service initiated an
                                    effort to develop a corporate-wide facilities database that
                                    would fully meet the needs of the Postal Service and its
                                    customers. That development effort and the system
                                    database associated with it are referred to as the FDB.

                                    The FDB interface, Web Box Activity Tracking System
                                    (WebBATS), Address Management System (AMS), and
                                    Facilities Management System for Windows (FMSWIN) are
                                    the four applications that currently upload selected data to
                                    the FDB. With this data, the FDB serves as a valuable asset
                                    to the Postal Service that is intended to function as the
                                    single source of detailed information about all Postal Service
                                    facilities.

                                    The Postal Service maintains a Products and Services
                                    module in the FDB for facilities that offer retail products and
                                    services to the public. This module provides information
                                    regarding the types of services that are available at the
                                    facility, days and times a service is offered, and special
                                    holiday and tax season hours. Postal Service employees
                                    update and validate data maintained in this module using
                                    the FDB web application.

                                    The Postal Service is currently working toward improving the
                                    FDB by redeveloping maintenance modules and the data
                                    certification processes to ensure conformity and maximum
                                    data integrity across the system.

Objective, Scope,                   The objective of this audit was to determine if the data
and Methodology                     supplied to the FDB are timely, complete, and validated for
                                    accuracy. Specifically, in order to determine if field
                                    managers were supplying timely and complete data for their
                                    assigned facilities, we reviewed data fields in the Products



                                                       1
Data Input Validation for the Facilities Database                                                 IS-AR-06-006



                                    and Services module for completeness and timely validation.
                                    We did not review data fields associated with inputs from the
                                    WebBATS, AMS, or FMSWIN.

                                    To determine if field managers were appropriately validating
                                    data for their assigned facilities, we analyzed validation
                                    dates within the Products and Services module for
                                    compliance with Postal Service requirements. In addition,
                                    we conducted tests to determine if the data within the
                                    Products and Services module were complete and
                                    reasonable.

                                    In order to determine why some offices were not in
                                    compliance with FDB validation requirements, we
                                    interviewed and observed Postal Service facility managers
                                    updating and validating the FDB at 12 judgmentally selected
                                    field offices.1

                                    We interviewed Postal Service managers and employees in
                                    the delivery and retail and information technology areas to
                                    understand the function and design of the FDB. We also
                                    reviewed system documentation and management
                                    requirements for maintenance of the database.

                                    We conducted this audit from August 2005 through
                                    March 2006 in accordance with generally accepted
                                    government auditing standards and included such tests of
                                    internal controls as we considered necessary under the
                                    circumstances. We discussed our observations and
                                    conclusions with management officials and included their
                                    comments where appropriate. We used manual and
                                    automated techniques to analyze computer-processed data.
                                    Based on the results of these tests and assessments, we
                                    concluded the data were sufficiently reliable to meet the
                                    review objectives.

Prior Audit Coverage                We did not identify any prior audits or reviews related to the
                                    objective of this audit.




1
 We judgmentally selected four stations in each of the Gateway, Northland, and San Francisco Districts. We
selected these offices based on their proximity to U.S. Postal Service Office of Inspector General (OIG) field offices
and the validation date of the Products and Services module for the facility.



                                                           2
Data Input Validation for the Facilities Database                                             IS-AR-06-006




                                                AUDIT RESULTS
                                     Our audit of the Products and Services module of the FDB
                                     confirmed that Postal Service management has made
                                     enhancements over the past year that should improve the
                                     quality of system data. However, management could make
                                     further improvements by addressing issues related to this
                                     module to ensure they maintain timely, complete, and
                                     accurate data within the FDB.

Validation of the                    According to Postal Service requirements,2 facility
Products and                         managers are to maintain FDB data at all times and review
Services Module                      and validate their retail products and services information
                                     every 90 days. However, some facility managers did not
                                     maintain and timely validate the accuracy of information
                                     within the Products and Services module of the FDB. This
                                     occurred because some facility managers were not aware of
                                     the requirements for validating information in the FDB, and
                                     management has not enforced compliance with these
                                     requirements. In addition, the FDB user manual contains
                                     outdated and inaccurate information. As a consequence,
                                     information in the FDB used by internal and external
                                     customers was incomplete, not timely, and potentially
                                     inaccurate.

                                     The OIG downloaded data from selected tables within the
                                     FDB on January 20, 2006. Using this data, we performed
                                     analyses on data elements within the Products and Services
                                     module for the 32,463 facilities that offered products and
                                     services to the public.3 From our analyses, we determined
                                     that management had not verified the information in the
                                     Products and Services module within the required 90-day
                                     period for over 33 percent of these facilities. In addition, we
                                     concluded they had not input information for at least five of
                                     the data elements in the Products and Services module for
                                     61 percent of the 32,463 facilities. These results were
                                     stratified and are displayed in Appendix A.

                                     This occurred because some facility managers were not
                                     aware of the requirements for validating retail products and
                                     services information every 90 days. Although a letter from

2
  These requirements were documented in a letter addressed to district managers dated September 27, 2005, and
signed by the vice president, Delivery and Retail.
3
  Facilities that offer retail products and services to the public had the subtypes of MAIN_PO, STATION, BRANCH,
FIN_S, and FIN_B within the FDB.



                                                        3
Data Input Validation for the Facilities Database                                          IS-AR-06-006



                                     the vice president, Delivery and Retail, as well as
                                     documents inserted in ‘point-of-purchase’ kits,
                                     communicated the validation requirements to the field, all
                                     12 of the facility managers4 we interviewed during our audit
                                     stated they were unaware of the requirements.
                                     Management also does not currently have a method of
                                     monitoring and enforcing compliance with these validation
                                     requirements.

                                     In addition, the Facilities Database System User Guide
                                     contains inaccurate information regarding maintenance of
                                     the Products and Services module. For example, the guide
                                     instructs the employee to leave the Products and Services
                                     module without making any changes if they view the
                                     information and find that no updates are needed. However,
                                     employees should use a validation button contained in the
                                     module to acknowledge they validated the data for their
                                     assigned facility.

                                     Postal Service’s Corporate Call Management unit uses FDB
                                     data to direct customers to service locations. In addition,
                                     retail marketing spends millions of dollars annually on ‘point-
                                     of-purchase’ signage that is sent to retail operations based
                                     on data in the Products and Services FDB module.
                                     Consequently, timely review and validation of the products
                                     and services information is critical to ensuring data in the
                                     FDB are accurate and complete.

Recommendation                       We recommend the vice president, Delivery and Retail,
                                     direct the manager, Customer Service Operations, to:

                                     1. Develop a management instruction that documents
                                        Postal Service requirements for maintaining and
                                        validating information within the Facilities Database.

Management’s                         Management agreed with the recommendation and is in the
Comments                             process of developing a management instruction that will
                                     document how often information in the FDB should be
                                     validated and who should be performing the validation. This
                                     action is scheduled for completion by May 30, 2006.
                                     Management’s comments, in their entirety, are included in
                                     Appendix B of this report.

4
 We judgmentally selected and interviewed four managers in each of the Gateway, Northland, and San Francisco
Districts.



                                                       4
Data Input Validation for the Facilities Database                                  IS-AR-06-006




Recommendation                       We recommend the vice president, Delivery and Retail,
                                     direct the manager, Customer Service Operations, to:

                                     2. Develop and implement a method of monitoring and
                                        enforcing employee compliance with Postal Service
                                        requirements for maintaining and validating Facilities
                                        Database data.

Management’s                         Management agreed with the recommendation and is in the
Comments                             process of adding input controls to the FDB modules that
                                     will not allow a user to validate a module until complete and
                                     valid information has been entered for the module. In
                                     addition, a data field will be added to each module designed
                                     to document whether information in each module is timely
                                     validated. Reports will be developed to monitor those
                                     facilities with modules that have not been validated in a
                                     timely manner. This action is scheduled for completion by
                                     May 30, 2006.

Recommendation                       3. Update the Facilities Database System User Guide to
                                        include instructions and requirements for validating and
                                        maintaining Facilities Database information.

Management’s                         Management agreed with the recommendation.
Comments                             Management is currently redesigning each FDB module.
                                     After the redesign has been completed, management will
                                     update the user guide to include instructions for updating
                                     and validating each FDB module. This action is scheduled
                                     for completion by May 30, 2006.

Evaluation of                        Management’s comments are responsive to all the
Management’s                         recommendations and the planned actions should correct
Comments                             the issues identified in the finding.




                                                      5
Data Input Validation for the Facilities Database                                      IS-AR-06-006




Recent Improvements In March 2005, Postal Service management began an
to the Facilities   initiative to improve the quality of data in the FDB by making
Database            significant enhancements to the system and to the
                    data-gathering processes:

                                     •    The Postal Service appointed area and district FDB
                                          coordinators for each facility. The intent of these
                                          appointments is to provide consistent messaging,
                                          ongoing training, and effective resolution to program
                                          issues.

                                     •    The Postal Service has created data selection “pull-
                                          down” menus for each input field. These menus give
                                          the user a choice of entries to make and help ensure
                                          facility managers enter consistent and quality data.

                                     •    The Postal Service has developed definitions for each
                                          input field for some modules. Prior to the creation of
                                          these definitions, some facility managers were
                                          uncertain as to the type of data they should enter into
                                          some of the input fields. Postal Service management
                                          plans to have definitions created for all FDB modules
                                          by the end of fiscal year 2006.

                                     •    The Postal Service has reduced the number of people
                                          with update and edit capabilities assigned to a facility to
                                          those with a business need. Prior to this enhancement,
                                          some employees had the ability to update information
                                          for a facility where they were not located.

                                     These enhancements should improve the quality of the data
                                     within the FDB.




                                                        6
Data Input Validation for the Facilities Database                                                   IS-AR-06-006




                                                    APPENDIX A

                            FACILITIES DATABASE PRODUCTS AND
                               SERVICES MODULE ANALYSIS

Table 1: Validation of Products and Services Module
    Days Since Validation of        Number of
 Products and Services Module        Facilities   Percentage of Total Facilities5
              0-90                    21,531                 66.3
             91-180                   2,883                   8.9
      More than 180 days              7,068                  21.8
         Never verified                981                    3.0
              Total                   32,463                  100


Table 2: Completeness of Products and Services Module
     Number of Incomplete         Number of
         Service Fields            Facilities   Percentage of Total Facilities5
               0                    5,923                  18.3
              1-4                   6,700                  20.6
              5-9                   14,008                 43.2
          10 or more                5,832                  17.9
             Total                  32,463                  100




5
    This number represents the facilities that offered products and services to the public as of January 20, 2006.



                                                             7
Data Input Validation for the Facilities Database          IS-AR-06-006




                       APPENDIX B. MANAGEMENT’S COMMENTS




                                                    8
Data Input Validation for the Facilities Database       IS-AR-06-006




                                                    9
